No. 20-97
IN THE SUPREME COURT OF THE UNITED STATES
MASSACHUSETTS LOBSTERMEN’S ASSOCIATION, ET AL.,
PETITIONERS
v.
WILBUR ROSS, SECRETARY OF COMMERCE, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 4TH day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains_ 6292
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _December 4, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 4, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin=s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-0097
MASSACHUSETTS LOBSTERMEN'S ASSOCIATION,
ET AL.
WILBUR ROSS, SECRETARY OF COMMERCE, ET
AL.

STEVEN J. ALAGNA
ASSOCIATE
BRYAN CAVE LEIGHTON PAISNER LLP
ONE METROPOLITAN SQUARE
211 NORTH BROADWAY, SUITE 3600
ST. LOUIS , MO 63102
314-259-2045
STEVEN.ALAGNA@BCLPLAW.COM
PAUL BEARD II
FISHERBROYLES, LLP
5670 WILSHIRE BLVD
SUITE 1800
LOS ANGELES, CA 90036
818-216-3988
PAUL.BEARD@FISHERBROYLES.COM
IAN MICHAEL FEIN
NATURAL RESOURCES DEFENSE COUNCIL
111 SUTTER STREET
21ST FLOOR
SAN FRANCISCO, CA 94104
415-875-6147
IFEIN@NRDC.ORG

LAWSON E. FITE
AMERICAN FOREST RESOURCE COUNCIL
700 N.E. MAULTNOMAH
SUITE 320
PORTLAND, OR 97232
503-222-9505
LFITE@AMFOREST.ORG
503-222-3255(Fax)
STANFORD PURSER
DEPUTY SOLICITOR GENERAL
OFFICE OF THE UTAH ATTORNEY GENERAL
160 E. 300 S.
SALT LAKE CITY, UT 84111
801-366-0379
SPURSER@AGUTAH.GOV
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
BARBARA A SMITH
PAISNER LLP
211 N. BROADWAY
SUITE 3600
ST. LOUIS, MO 63102
314-259-2000
BARBARA.SMITH@BCLPLAW.COM
JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

